Akin Gump

STRAUSS HAUER & FELD LLP

PRATIK A. SHAH
+1 202.887.4210/fax: +1 202.887.4288
pshah@ akingump.com

January 15, 2020
VIA HAND DELIVERY AND ELECTRONIC FILING

Scott S. Harris

Clerk of Court

Supreme Court of the United States
One First Street, N.E.

Washington, DC 20543

Re: Donald J. Trump, et al. v. Deutsche Bank AG, et al., No. 19-760
Dear Mr. Harris:
Iam counsel of record for Respondent Deutsche Bank AG in the above-captioned case.

Consistent with its position before the court of appeals and district court, Deutsche Bank
AG takes no position on the merits of this case, which concerns a dispute between Petitioners
and the U.S. House Respondents. Accordingly, Deutsche Bank AG does not intend to file a
merits brief or participate in oral argument before this Court.

Sincerely,

Datle Ahan

Pratik A. Shah

cc: Counsel of Record

RECEIVED
4a PREME COURT Wiss
1 > a POLICE ore

‘mm wn is PS We

Robert S. Strauss Tower | 2001 K Street, N.W. | Washington, DC 20006-1037 | 202.887.4000 | fax 202.887.4288 | akingump.com
